       SENSITIVE BUT UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




          Memorandum Report


       Evaluation of

  Department of State’s

Public Diplomacy Network

 Conversion to OpenNet

           Plus

Report Number IT-I-05-08, September 2005




                             IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will
be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.



        SENSITIVE BUT UNCLASSIFIED

                    SENSITIVE BUT UNCLASSIFIED





                           TABLE OF CONTENTS



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

RESULTS IN BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

APPENDIX A - OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . 17

APPENDIX B - DEPARTMENT COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19





                        SENSITIVE BUT UNCLASSIFIED

                    SENSITIVE BUT UNCLASSIFIED





                                INTRODUCTION

    The deployment of OpenNet Plus (ONP) has made it possible to fulfill the
former Secretary of State's highest information technology priority: to create a
computer network providing Internet access for all Department of State (Depart-
ment) employees. After the ONP implementation was initiated, the Under Secre-
tary for Management mandated that the merger of the U.S. Information Agency
(USIA) be completed by eliminating the Public Diplomacy global network
(PDNet), enhancing the functionality of ONP to meet the business needs of the
public diplomacy employees, and eliminating redundant networks and resources.

   The Office of Inspector General (OIG) evaluated the Department's PDNet
conversion to ONP to assess the overall success of the conversion. Details on the
scope and methodology for this evaluation are in Appendix A.




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   1 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





2 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                            RESULTS IN BRIEF

    By June 30, 2004, the Department completed the consolidation of PDNet users
into ONP and enhanced the functionality of the network for meeting the essential
business needs of the public diplomacy employees. However, the Department did
not adequately identify alternative mechanisms to provide PDNet services that
could not be supported by ONP. As a result, the Department experienced an
increase in the number of Dedicated Internet Networks (DINs) that have been
deemed necessary by posts to support business processes that are not satisfied
through the implementation of ONP. For example, many posts are continuing to
maintain stand-alone networks with the submission of DIN waiver requests. With
more than 190 DINs awaiting final approval from the Information Technology
Change Control Board (ITCCB), the Department has not adequately addressed the
remaining issues from the PDNet conversion. Furthermore, the Department has
not conducted an analysis to determine additional costs and benefits, if any,
associated with DIN waiver requests. A DIN working group was tasked to address
the aftermath of the conversion project; however, without a charter outlining the
working group's mission and responsibilities to the Department, and without clear
procedures for the DIN waiver request approval and follow-up process, the Depart-
ment has not made substantial progress in addressing these issues. The Department
concurred with OIG's recommendations and is moving forward to implement the
recommendations.




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   3 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





4 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                  BACKGROUND

     One of the former Secretary of State's highest information technology priori-
ties was to create a computer network providing Internet access for all Department
employees, which was achieved via ONP. The integration of USIA into the De-
partment in October 1999 introduced an additional network, which provided
Internet access. Employees within the Office of the Under Secretary for Public
Diplomacy and Public Affairs used this network, PDNet, for unclassified informa-
tion processing and communications. In 2003, the Under Secretary for Manage-
ment mandated the Department to complete the merger of former USIA into the
Department by consolidating PDNet into ONP and eliminating redundant net-
works and resources.

    To build on the successful completion of ONP and to eliminate duplication of
core network services, the Chief Information Officer (CIO) for the Department
and the Under Secretary for Public Diplomacy and Public Affairs signed an agree-
ment in October 2003 stating that all domestic and overseas PDNet services be
integrated into the ONP network and that alternative mechanisms would be found
to provide PDNet services that could not be supported by ONP. The memoran-
dum of understanding stated that the conversion project, scheduled to be com-
pleted by June 30, 2004, would include the migration of all public diplomacy
professionals and ensure that security risks were at an acceptable level.

     To manage the project, the Under Secretary for Management created a PDNet-
ONP project taskforce consisting of a working group, advisory board, and six
technical subgroups to ensure project success. The taskforce consisted of represen-
tation from the Bureaus of Information Resource Management (IRM), Educational
and Cultural Affairs (ECA), International Information Programs (IIP), and Diplo-
matic Security (DS). The taskforce identified several benefits and challenges for
the conversion project. Specifically, Department officials believed the completion
of the conversion would eliminate redundancy of services and infrastructure,
improve cost effectiveness and overall network security, simplify network-wide
hardware and software updates, and enhance ONP services. On the other hand,
the taskforce believed the challenges would include converting 219 overseas and
three domestic locations without having a major impact or disruption on the public
diplomacy services.



OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   5 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



            Business requirements were gathered from public diplomacy employees to
        determine which systems and applications used on PDNet were essential and
        needed to be included in ONP. The business requirements were evaluated to
        identify the most critical ones for public diplomacy services, including digital
        videoconferencing and Internet access for foreign publics.

            A Department survey sent to information management officers (IMOs) and
        public affairs officers (PAOs) who participated in the conversion project showed
        the majority of those who responded were satisfied with the conversion project.
        Of the over 20 percent of the IMOs and PAOs who responded, 83 percent be-
        lieved the program goals were accomplished, and 74 percent believed the PAO and
        IMO were responsive to each other's needs. Department officials also believed the
        project was successful in meeting its goals by streamlining equipment upgrades,
        increasing ONP speed and enhancing electronic mail attachment capabilities. The
        conversion project was completed on June 30, 2004.




6 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





    FINDINGS AND RECOMMENDATIONS

    The Department met one of its initial goals of migrating PDNet users to ONP,
but did not identify adequately alternative mechanisms to provide PDNet services
that could not be supported by ONP. The result has been an increase in the num-
ber of DINs that posts have deemed necessary to support business processes that
are not satisfied through the implementation of ONP. Inadequate senior manage-
ment attention and unresolved technical issues have hindered efforts to eliminate
stand-alone networks completely within the Department. Posts have submitted
hundreds of DIN waiver requests citing testing and development as one reason for
their stand-alone networks. The Department has not established procedures for the
approval and follow-up of DIN waiver requests. Furthermore, the Department has
not performed a DIN cost analysis or determined the effect DINs will have on
potential funding resources. To date, the Department has not initiated a clear plan
of action for addressing these issues.



DEDICATED INTERNET NETWORKS
    With the completion of the project, the Department eliminated one network;
however, many posts are continuing to use stand-alone networks with the submis-
sion of a DIN waiver request to the Department. According to Department
regulations, a post may submit a DIN waiver request for supporting services
outside the boundaries of ONP. A post can request a DIN for several reasons,
including testing of applications and hardware prior to approval by their local
change control board or to connect systems not managed by the Department.




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   7 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



        Testing and Development

            An analysis conducted by ECA and IIP shows that 121 waiver requests out of
        the more than 200 submitted cited testing and development as a reason for the
        DIN waiver request. According to the project taskforce, a post may submit a
        waiver request for testing and development purposes when required to test applica-
        tions and hardware prior to approving them by their local change control board.
        Department officials stated that IRM is currently developing a design for a world-
        wide development network that would use the same circuits as ONP, in an effort to
        eliminate the need for posts to submit a DIN waiver request for testing and devel-
        opment purposes. In April 2005, a DS memorandum raised questions about how
        the network would be protected and what controls would be in place to prevent
        unauthorized connectivity between ONP and the development network. As of
        July 2005, the Department had not made any significant progress in deploying the
        development network. Until the Department makes significant progress, posts will
        continue to submit DIN waiver requests for testing and development purposes,
        thus continuing the proliferation of stand-alone networks.


            Recommendation 1: The Bureau of Information Resource Management, in
            coordination with the Bureaus of Educational and Cultural Affairs, Interna-
            tional Information Programs and Diplomatic Security, should deploy a world-
            wide development network for the testing and development of applications
            and programs. (Action: IRM, in coordination with ECA, IIP, and DS)


        Project Savings and DIN Cost Analysis

            During the conversion project, the project taskforce provided the Under Secre-
        tary for Management with a cost spreadsheet outlining its projection of savings
        with the Department's PDNet conversion to ONP. The cost analysis showed a
        projected savings of $2.4 million, which was estimated based on life cycle replace-
        ment costs for systems and equipment, systems support, licensing, and network
        infrastructure maintenance assessment costs. With the completion of the conver-
        sion project, the Department did not experience significant costs savings. Depart-
        ment officials cited other benefits such as the elimination of public diplomacy
        computers and a network, leading to cost savings in technology refreshes and
        upgrades. Furthermore, Department officials cited a more secured and enhanced
        ONP infrastructure as a benefit of the conversion.




8 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    Since the completion of the project, the Department has not determined actual
and continued cost savings for the Department. In the process of shifting over
domestic and overseas users from PDNet to ONP, the Department has not re-
ported any additional resource savings. The Department predicts future savings in
personnel, hardware, and software - specifically, a reduction in helpdesk staff. With
the elimination of PDNet at posts, the Department also believes there may be
opportunities to reassign staff that have worked exclusively for the public affairs
section. To date, the Department has eliminated over 300 desktop workstations
domestically, thereby avoiding life cycle replacement costs. Overseas, more than
2,000 workstations and about 200 servers have been removed from posts. The
Department estimated a cost savings of approximately $1.3 million per year with
the elimination of this hardware from the Department's inventory.

    The Department has not conducted an analysis of additional costs to be in-
curred with DINs. The Department stated that most posts will maintain these
networks to provide computing and connectivity services that are not permitted on
ONP because of security concerns. The Department believes a portion of the
resources required for these DINs can be funded through a combination of Interna-
tional Cooperative Administrative Support Services, central programs managed by
IRM, or the public diplomacy allotment formerly used for PDNet. However, the
Department has not determined the effect DINs will have on these potential
funding resources.


   Recommendation 2: The Bureau of Information Resource Management, in
   coordination with the Bureaus of Educational and Cultural Affairs, Interna-
   tional Information Programs and Resource Management, should perform an
   analysis of additional costs and benefits from the existence of Dedicated
   Internet Networks. (Action: IRM, in coordination with ECA, IIP, and RM)


DIN Approval and Follow-Up Process

    As of May 2005, the Department had 223 DIN waiver requests, more than 190
of which were still awaiting approval. Changes that potentially affect the
Department's global information technology environment are managed by the
ITCCB, which processes waiver requests for the DIN connections. The ITCCB
board, which has representation from IRM, ECA, IIP, DS, and the Bureau of
Resource Management (RM), is responsible for making the decision on each DIN
waiver request in accordance with 5 FAM 800. The ITCCB board does not have
established procedures for approving DIN waiver requests and addressing board


OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   9 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




         members' comments and concerns. According to IRM officials, each ITCCB board
         reviewer uses his or her own procedure for determining approval on each waiver
         request. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
         (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
         (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
         (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
         (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
         (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

              In response to the substantial number of waiver requests submitted in the
         aftermath of the conversion project, the Under Secretary for Management tasked
         the project manager in December 2004 to create a DIN working group to manage
         the DIN process. The DIN working group is comprised of representatives from
         ECA, IIP, IRM, and RM. The DIN working group attempted to develop an ap-
         proach to address the outstanding DIN waiver requests but did not succeed. The
         working group continued to address remaining issues (charter outlining responsibili-
         ties, decision on pending waiver requests, cost analysis) in the months following the
         completion of the PDNet conversion.

             In January 2005, ECA and IIP completed an analysis of the remaining DIN
         waiver requests. Their analysis revealed that posts cited over 60 different reasons
         to have DIN support, 99 percent of the waiver requests provided from two to 10
         different reasons why posts felt a DIN was necessary, and all waivers in ECA and
         IIP's opinion provided at least one legitimate business requirement that cannot be
         accomplished currently through ONP. As a result, ECA and IIP informally recom-
         mended to IRM and RM that all of the DIN waivers be approved, but follow-up
         activity with posts should continue. The analysis did not address the additional
         costs of the requests nor determine the cost effectiveness of the proposals.

             As of July 2005, no action had been taken in response to ECA and IIP's infor-
         mal recommendation, in part because of concerns cited from RM. As a reviewer
         on the ITCCB board, RM has cited concerns of funding and staff resources to
         other DIN working group participants. In an attempt to resolve RM's concerns,
         DIN working group representatives from ECA, IIP, and IRM have met with RM.
         During discussions with OIG, RM stated that the posts have valid requirements for
         submitting waiver requests, but RM refuses to provide its approval until the De-
         partment gains a clear understanding of the impact on resource costs, i.e. equip-
         ment and staff, associated with DINs. OIG supports RM in this effort and believes
         the Department needs to categorize these waiver requests and determine the most
         cost-effective way to address the requirements and develop a plan for implementa-
         tion.


10 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





   Recommendation 3: The Bureau of Information Resource Management, in
   coordination with the Bureaus of Educational and Cultural Affairs, Interna-
   tional Information Programs, Diplomatic Security, and Resource Management,
   should establish clear procedures to be used by the Information Technology
   Change Control Board for the Dedicated Internet Network waiver requests,
   including procedures for the approval and follow-up of actions taken to ad-
   dress reviewer comments. (Action: IRM, in coordination with ECA, IIP, DS,
   and RM)



   Recommendation 4: The Bureau of Information Resource Management, in
   coordination with the Bureaus of Educational and Cultural Affairs, Interna-
   tional Information Programs and Resource Management, should establish a
   charter for the Dedicated Internet Network working group outlining its mis-
   sion and responsibilities to the Department. (Action: IRM, in coordination
   with ECA, IIP, and RM)



   Recommendation 5: The Bureau of Information Resource Management, in
   coordination with the Bureaus of Educational and Cultural Affairs, Interna-
   tional Information Programs and Resource Management, should develop cost-
   benefit parameters, and design and implement a plan for resolving remaining
   concerns with the approval of Dedicated Internet Network waiver requests.
   (Action: IRM, in coordination with ECA, IIP, and RM)




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   11 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





12 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





             FORMAL RECOMMENDATIONS

Recommendation 1: The Bureau of Information Resource Management, in coor-
  dination with the Bureaus of Educational and Cultural Affairs, International
  Information Programs and Diplomatic Security, should deploy a worldwide de-
  velopment network for the testing and development of applications and pro-
  grams. (Action: IRM, in coordination with ECA, IIP, and DS)

Recommendation 2: The Bureau of Information Resource Management, in coor-
  dination with the Bureaus of Educational and Cultural Affairs, International
  Information Programs and Resource Management, should perform an analysis
  of additional costs and benefits from the existence of Dedicated Internet Net-
  works. (Action: IRM, in coordination with ECA, IIP, and RM)

Recommendation 3: The Bureau of Information Resource Management, in coor-
  dination with the Bureaus of Educational and Cultural Affairs, International
  Information Programs, Diplomatic Security, and Resource Management, should
  establish clear procedures to be used by the Information Technology Change
  Control Board for the Dedicated Internet Network waiver requests, including
  procedures for the approval and follow-up of actions taken to address reviewer
  comments. (Action: IRM, in coordination with ECA, IIP, DS, and RM)

Recommendation 4: The Bureau of Information Resource Management, in coor-
  dination with the Bureaus of Educational and Cultural Affairs, International
  Information Programs and Resource Management, should establish a charter for
  the Dedicated Internet Network working group outlining its mission and respon-
  sibilities to the Department. (Action: IRM, in coordination with ECA, IIP, and
  RM)

Recommendation 5: The Bureau of Information Resource Management, in coor-
  dination with the Bureaus of Educational and Cultural Affairs, International
  Information Programs and Resource Management, should develop cost-benefit
  parameters, and design and implement a plan for resolving remaining concerns
  with the approval of Dedicated Internet Network waiver requests. (Action:
  IRM, in coordination with ECA, IIP, and RM)




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   13 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





14 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                               ABBREVIATIONS

CIO                                             Chief Information Officer
DIN                                             Dedicated Internet Network
DS                                              Bureau of Diplomatic Security
ECA                                             Bureau of Educational and Cultural
                                                Affairs
IIP                                             Bureau of International
                                                Information Programs
IMO                                             Information Management Officer
IRM                                             Bureau of Information Resource
                                                Management
ITCCB                                           Information Technology Change Control
                                                Board
OIG                                             Office of Inspector General
ONP                                             OpenNet Plus
PAO                                             Public Affairs Officer
PDNet                                           Public Diplomacy Network
RM                                              Bureau of Resource Management
USIA                                            United States Information Agency




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   15 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





16 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                     APPENDIX A

                       Objectives, Scope, and Methodology
             OIG conducted an evaluation of the Department's PONe! conversion to ONP to
     assess the overall success of the conversion. As part of this evaluation. the team assessed
     management and smffresponsibililics, projected timeframes, conversion costs,
     conversion savings, and the process for waiver requests that continue stand-alone
     networks.

             To meet its evaluation objectives, OIG analyzed regulations discussing the
     government-wide requirements for Internet connectivity and agreed-upon requirements
     for the Departmenl's PDNel conversion initiative. The team also evaluated
     documentation gathered from Department officials and from the project website. The
     documentation included cables, meeting minutes, and project plans and presentations.
     010 did nOt verify nor validate any project analysis conducted by the Department. The
     team also met with Depanment officials to determine the status of the project. as well as
     any issues requiring Department action. OlG met with Department officials in the
     Bureaus of Information Resource Management, Diplomatic Security. International
     Infonnation Programs, and Resource Management. The report was sent for comments to
     Department officials. The Department's comments were incorporated into the report as
     appropriate.

              010 perfonned this evaluation in Washington, DC, between April 12 and July 29,
      2005. Mary S. Heard and Vandana Patel were the major contributon to the report.




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   17 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





18 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                     APPENDIX B




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   19 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





20 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                                       Department Comments (cont.)




                                                          U. CLASSIFIED

                                                             Attachment

               RM/BP Comments on Draft GIG :'vIcmorandul11 Repan l'umber IT-I-05·08. '-Evaluation
               or tile Department of State's Public Diplomacy i"\etwork Conversion to Openl'ct Plus"

                      RM/BP continues to participate in the review of Dedicated Internet ?"etworks
               (OrNs) waiver requests as part orthe Infomultion Technology Change Control Board
               (ITeeB). R1VI/BP is working with IRM to re\ ie\\ the waivers. RMIBP acknowledges,
               for example, that a DI7'J is an effective option for business thm cannot be migrated [0
               OpcnNet Plus for security reasons. The Department docs need to assess the cumulative
               impact of Df:"Js. including costs and benefits, and how and where ONP can evolve to
               accommodate the needs currently requiring DINs.

                         Whsle RMfBP accepts GIG's recommendations. as described belo\\',
               implementation of them must be accomplished in a cost-effective manner. The
               Depanrnent needs to usc the waiver process to ensure that the each DIN is necessary to
               suppon the Department's mission and cannot be accomplished on ONP. Each waiver
               request has policy. priority. and resource issues. RMfBP has and continues 10 suppon
               IR.-VI In addressing those issues and IR:\"'s efforts (0 ha . . . e an appropriatc architecture to
               address the Depanment's business needs.

               Project SaVings and DIN Cost A"a~\'sis

                         Recommendation 2: The Bureau of lnfonnatlon Resourcc Management, in
               coordination with the Bureaus of Educational and Cultural Affairs, International
               Information Programs and Resource Management. should pcrfom\ an analysis of
               additional costs and benefits to be expected from the existence of Dedicated Internet
               :'Jc[\.vorks. (Action: IRJv1, in coordination with ECA. UP, and R.\If)

                      RM/BP Response (08/19/05): RM BP accepts OIG's recommendation and is
               prepared to assist fRM and the other bureaus Iistcd abovc in accomplishing it.

               DIN Appro\'ol and Follow-up Process

                        Recommendation 3: The Bureau of Information Resource Management. in
               coordination with the Bureaus of Educational and Cultural Affairs, Intemational
               Infomlatloll Programs, Diplomatic Security. ant..! Resource Management, should establish
               clear procedures to be used by the Infol111ation Technology Change Control Board for the
               Dedicated Internet Network 'Naiver requests. incluchng procedures for the approval and
               follo'\ ~up 01 actions taken to address reviewer comments. (Action: IRM. in coordination
               with ECA. liP, OS, and RM)

                                                          UNCLASSIFIED




OIG Report No. IT-I-05-08, Evaluation of the DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005   21 .

                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                                         Department Comments (cont.)




                                                                  LJ'iCLASSI FIl'D


                             !~M     \31' f{,sponse (Og ]() 05): R'Vl RP llC(;(;pts OIG's r~(;{)11lI1H:lHlaIIl1l1 and h
                     pr(;pan::d to   a~~i~III{\1 and lhe olher burcaus lis\t:d ,lbo\"c in i1chicl ing it.

                            I{ceoml1ll;"nd:'llion 4: The Rllr..:au or Inrollmnion Resourcc M<ll1agenK'nl. in
                     coorumation 1\ ith lh", BurotOlis of Educillionaland Cultural Aftillrs, Illlem:lll0n<l1
                     lnronn:uioll Programs :.md Resoure.:: II.lanagcmclll. should .::slubli.h a chana lor lhe
                     Dcdicmcu Inlcrn... t ", ... \I\orks working grollp oll\1ining its mission ,)11(1 rot~ponslhili\ies to
                     lhe DepanmclH. (.-\(;tI011' IRIvI. in coordinalion wilh ErA, liP and R\l)

                             R\l AP RcsjlJlnsc (0819 OS): R.i\l UP accepts GIG's n:colllll1cndalion as long as
                     the chaner COlllalib a t<2r1ll11lallOn dme. RM BP acknowledges the work aceompllsh,d by
                     the Ol'\s working group_ The working group should help accomplish till::
                     recommendations in this repOrt and then be tCnlll11ated. The lTCCll, gi\en adequate
                     procedurallllSlruclion~Idenlified 1ll Recommendations 1 and 3. can do lhc ongoing 1I'0rk.


                              Rccommendallon 5: The BlIreau of Inlonn:ltlOn Resource \tl<lnilgcIllCrll. in
                     coonlin<ltioll \\ ilh lhe llun:,lus or [du.:ational :Jnd ('Illlllral A tTuirs. [nlcrn:.llillll:Jl
                     lnfoml<ltion Programs :Jnl! Rcsource \-klTwgemel1l. should del'clop eost-hcncli\
                     paramelcr:;. and d,,'sign and implement ,I plan Jor rcsoh ing r<,:maining concnns" ilh the
                     3ppfOY3! 01' I)edicaled Imernet '\etll'ork II al\ er requests, (AClioll" IR \1. III coordin:1l10n
                     II ilh EC A. III' and R.\1)

                              R\l BP R611ol1se ros ]lJ 05) RM Bl' ,leceplS DIG's recolllmendalion, The
                      DI:\5 \Imkmg group should accomplish Recommendations 2. 3 and 5 eonell1n:l1l1)




22 .   OIG Report No. IT-I-05-08, Evaluation of DOS’s Public Diplomacy Network Conversion to OpenNet Plus, Sept. 2005


                      SENSITIVE BUT UNCLASSIFIED
